                            SOCIAL SECURITY

                                   January 31, 2008

The Honorable Henry Waxman
Chairman
Committee on Oversight and Government Reform
House of Representatives
Washington, D.C. 20515

Dear Mr Chairman:

In a December 7, 2007 letter, you asked that we provide a list of recommendations we
made from January 1, 2001 to the present that have not been implemented by Social
Security Administration officials or by Congress.

My office is committed to combating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. The enclosed report details
recommendations we made from January 1, 2001 to the present that have not been
implemented. Additionally, we provided a copy of this report to the Social Security
Administration.

If you have any questions concerning this matter, please call me or have your staff
contact Wade Walters, Assistant Inspector General for Congressional and
Intra-Governmental Liaison, at (202) 358-6319.

                                               Sincerely,




                                               Patrick P. O’Carroll, Jr.
                                               Inspector General

Enclosure

cc:
Michael J. Astrue




            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

    Unimplemented Audit
Recommendations Since January
            2001

         A-15-08-28105




         January 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to SSA programs and operations.
   Promote economy, effectiveness, and efficiency within the SSA.
   Prevent and detect fraud, waste, and abuse in SSA programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to SSA programs and operations.
   Keep the SSA head and the Congress fully and currently informed of
    problems in SSA programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                              Background
OBJECTIVE

To provide the Committee on Oversight and Government Reform a list of
recommendations made by the Social Security Administration Office of the Inspector
General (SSA OIG), Office of Audit, from January 1, 2001 to the present that have not
been implemented by the Social Security Administration (SSA).

This report is not an audit but rather the result of a data gathering effort by the SSA
OIG. We shared the recommendations with SSA, and they provided us with their status
on these recommendations. However, we did not independently verify the status. Also,
because this is not an audit, we did not perform this data gathering effort in accordance
with Governmental Auditing Standards. The information, however, has been shared
with SSA.

BACKGROUND
The Social Security Administration (SSA) Office of the Inspector General, Office of Audit
(OIG-OA), performs comprehensive audits, attestation engagements and evaluations of
SSA's programs and operations. These audits are performed in accordance with
Government Auditing Standards, applicable Office of Management and Budget (OMB)
circulars, bulletins and other legal, regulatory and administrative requirements. Audits
and attestation engagements are conducted to detect and prevent fraud, waste, and
abuse in SSA's programs and operations. The OIG-OA also has responsibility for the
comprehensive audit of SSA's annual financial statements. Evaluations are conducted
in accordance with Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency (PCIE). OIG-OA also identifies opportunities for savings,
better use of funds and improved program management and results through regulatory
reform and policy change along with recommendations for corrective action and
recovery of funds.

Since December 2001, SSA OIG has issued an annual report on the major
management challenges facing the Agency. The inaugural report, issued December 7,
2001, identified 10 Management Challenge Areas. At that time they were:

      Critical Information Infrastructure
      Earnings Suspense
      Fraud Risk
      Identity Theft
      Service to the Public
      Disability Redesign
      Enumeration
      Government Performance and Results Act



Unimplemented Audit Recommendations Since January 2001 (A-15-08-28105)                  1
      Representative Payees
      System Security and Controls

Over the years, we have re-evaluated the list of challenges and, where appropriate,
combined, condensed or modified the list to reflect changes in the SSA environment. In
our most recent Management Challenges Report which was issued in November 2007,
we identified the following Management Challenges:

      •   Social Security Number Protection
      •   Management of the Disability Process
      •   Improper Payments and Recovery of Overpayments
      •   Internal Control Environment and Performance Measures
      •   Systems Security and Critical Infrastructure Protection
      •   Service Delivery and Electronic Government

From January 1, 2001 to January 4, 2008, OIG-OA performed 711 audits of which 2,440
recommendations have been presented to SSA. Our audits addressed occurences of
fraud, waste, abuse as well as SSA’s major management challenges as identified by
SSA OIG. This document provides detailed information on unimplemented audit
recommendations made during the period January 1, 2001 to January 4, 2008. The
recommendations are categorized by the Major Management Challenges identified in
OIG’s 2007 Management Challenges Report. Each section contains narratives defining
the management challenge and the most significant recommendations. In determining
the priority classification of the recommendations, we used our professional judgment
and considered other factors, such as dollar impact and criticality.

It should be noted that OIG-OA’s goal is to maintain an annual rate of acceptance of at
least 85 percent for all audit recommendations. In fiscal year 2007, we surpassed our
goal by achieving a 97 percent rate of acceptance.

As evident by the FY 2007 rate of acceptance, OIG has maintained a good working
relationship with SSA. The Deputy Commissioner of Budget, Finance, and
Management, Audit Management and Liason Staff (AMLS) is responsible for SSA’s
audit management liasion activities with the Government Accountability Office and the
Office of the Inspector General. AMLS plays an important role in facilitating
communication between SSA and OIG. The staff also maintains the official record of
audit recommendations, responses, and status for SSA.




Unimplemented Audit Recommendations Since January 2001 (A-15-08-28105)                    2
                                                           Results of Review
From January 1, 2001 to January 4, 2008, there have been 497 (20 percent of the
2,440 recommendations) that have not been implemented by SSA. SSA agreed to 275
of these recommendations. For the remaining 222 recommendations, SSA either
disagrees, 1 partially agrees, or a response is still pending2. Chart 1 illustrates:


                                               CHART 1

            Agency Response to Unimplemented Recommendations from
                       January 1, 2001 to January 4, 2008


                                          Pending
                Partial Agreement           50
                        15                 10%
                        3%




                                                                               Agency Agreed
          Agency Disagreed
                                                                                    275
                157
                                                                                   55%
               32%




1
  If the SSA disagrees with our recommendation(s), they consider it “closed” and do not provide further
follow-up.
2
  SSA’s decision on the implementation of the recommendation has not been provided to OIG on the
official Agency tracking sheet.


Unimplemented Audit Recommendations Since January 2001 (A-15-08-28105)                                    3
Of the unimplemented recommendations, OIG-OA has identified 60 which represent
$2.6 billion in questioned costs, 3 25 which represent $3.4 billion in funds that could have
been put to better use, and 412 which yield non-monetary benefits. Chart 2 and 3
illustrate:

                                                 CHART 2

                 Unimplemented Recommendations with Questioned Costs
                           by Major Management Challenges

             Major Management                # of Recommendations             Questioned Cost
             Challenge
             Internal Control                            30               $       23,108,467
             Improper Payments                           24               $    2,563,412,476
             Service Delivery                             4               $         409,867
             Management Disability                        1               $        2,197,772
             Systems Critical Protection                  1               $       43,026,215
             SSN Protection                               0               $              -
             Total                                       60               $    2,632,154,797

                                                 CHART 3

                    Unimplemented Recommendations with Funds Put to
                       Better Use by Major Management Challenges

             Major Management              # of Recommendations         Funds Put to Better
             Challenges                                                 Use
             Improper Payments                         11               $        2,869,052,447
             Service Delivery                           5               $          344,283,926
             Internal Control                           4               $           13,884,616
             Management Disability                      3               $          217,645,839
             SSN Protection                             1               $            6,000,000
             Systems Critical Protection                1               $            1,011,772
             Total                                     25               $        3,451,878,600




3
    Questioned Costs are costs that are challenged because of violation of law, regulation, etc.


Unimplemented Audit Recommendations Since January 2001 (A-15-08-28105)                             4
      Based on the audit findings and the expected benefit to the SSA, we have ranked each
      unimplemented recommendation as high, medium, or low. A high-level summary of all
      high priority recommendations is located below in Chart 4. The corresponding details
      are highlighted in red throughout the various management challenge sections. The
      status information was provided by SSA’s Audit Management Liaison Staff and was not
      independently verified by our office.

                                              CHART 4

      Unimplemented High Priority Recommendations by Major Management Challenge

Major Management Challenges              High Priority    Total #            Total       Total Funds
                                       Recommendations   which with       Questioned     Put to Better
                                                            SSA             Cost              Use
                                                         Concurred
Social Security Number Protection            26             19        $          -      $           -
Management of the Disability Process         17             14        $    2,197,772    $ 217,645,839
Improper Payments and Recovery of            21             18        $2,398,619,067    $ 2,841,194,767
Overpayments
Internal Controls Environment and             3              0        $     4,491,286   $          -
Performance Measures
Systems Security and Critical                26             13        $    43,026,215   $          -
Infrastructure Protection
Service Delivery and Electronic               3              1        $           -     $ 344,247,728
Government
Total                                        96             65        $2,448,334,340    $3,403,088,334




      Unimplemented Audit Recommendations Since January 2001 (A-15-08-28105)                   5
                                                                     Conclusions
The largest number of high priority recommendations that remain unimplemented relate
to Social Security Number and Systems Security and Critical Infrastructure Protection.
The most significant SSN related recommendations focus on three areas: proactively
seeking to limit the collection, use and disclosure of SSNs; establishing accurate,
consistent and effective SSN verification programs for employers and other users; and
examining the necessity of assigning SSNs to certain populations of noncitizens.
Although many of these recommendations do not have quantifiable dollar savings or
funds that could be put to better use, they are important to the integrity of information
maintained by SSA; and as such, require management attention. Some of the
unimplemented recommendations within systems security and critical infrastructure
protection focus on recent Government-wide initiatives for safeguarding personally
identifiable information and ensuring safeguards against unauthorized access to
sensitive data. Similarly, these recommendations do not have dollar savings, but they
address security issues that are of concern to the Government, its stakeholders, and the
public.

One other area of interest over the past seven years has been improper payments. In
2004, at the request of Senator Grassely, we conducted an evaluation on improper
payments in SSA’s disability programs. As a result, we estimated overpayments
amounting to $1.2 billion and quesitoned cost of $2.1 billion. Note that these amounts
are not included in the summary charts in this document, as SSA has reported that the
recommendations in the report have been closed as implemented due to the ongoing
continuing disability reviews (CDR) performed by SSA. However, over the past seven
years, the volume of CDRs performed by SSA has decreased from approximately 1.7
million in FY 2001 to 765,000 in FY 2007 4.

SSA management has agreed with a substantial number of the recommendations made
since 2001. In fact, since 2001, we have met or exceeded our performance goal of
achieving Agency agreement on 85 percent of our recommendations. Furthermore, the
Agency’s implementation of approximately 79 percent of our recommendations reflects
management’s responsiveness and commitment to addressing the management
challenges facing the Agency. Like many other Federal agencies, SSA is attempting to
provide sustained or improved services with limited resources. To that end, some of the
delays surrounding implementation of recommendations are the result of limited
resources and management having to make judgment calls on where to use those
limited resources.

     The details of the management challenges are available upon request.




4
    Source: SSA’s FY 2001 and FY 2007 Performance and Accountability Reports


Unimplemented Audit Recommendations Since January 2001 (A-15-08-28105)                   6
Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
